                                        A MESSAGE FROM THE
                                         INSPECTOR GENERAL
We are pleased to present the Nuclear Regulatory Commission (NRC)
Office of the Inspector General (OIG) Semiannual Report to Congress for the
6-month period ending March 31, 2007.
During this semiannual period, we issued 12 audit reports on NRC’s financial
statements, programs and operations. In addition, we issued 5 contract audit
reports that contained $194,000 in questioned costs, and final agency action
has been completed on a prior contract audit that resulted in $3.6 million in
disallowed costs. OIG also opened 43 investigations, and completed 21 cases.
Eleven cases were referred to the Department of Justice, and 31 were referred
to NRC management for action during this reporting period.
Our work reflects the legislative mandate of the Inspector General Act to
identify fraud, waste, and abuse and to recommend appropriate corrective actions. The audits and
investigations highlighted in this report demonstrate our commitment to improving NRC’s programs
and operations and protecting their integrity.
During the next few years, NRC will receive its first round of new reactor applications since 1978.
Some applications may involve new reactor design technologies and a new licensing process (combined
operating license). NRC estimates that it will receive 16 or more new applications in the coming years,
and projects that upward of 450 new staff positions will be needed to meet this demand.
Coinciding with the increase in regulatory responsibilities, is the expected retirement of many senior
staff who have the experience in licensing reactors from the 1960s, 1970s, and 1980s. The agency’s
ability to effectively review and license the new generation of commercial nuclear reactors will depend
significantly on how well employees new to the process are trained and developed into effective reviewers
and regulators at the staff and senior management level. Furthermore, construction oversight of future
plants will be equally or more challenging.
The review of new applications involving new reactor technologies, a new licensing process, and a new
staff in this realm, will necessitate strong control processes to ensure that the agency meets its review
and licensing objectives. By being a proactive independent observer and evaluator, OIG will support
the agency through its oversight and recommendations designed to reduce the inherent risks in carrying
out this new regulatory program.
I look forward to continuing the collaborative work between my staff and agency managers to accomplish
our common goal of ensuring the effectiveness, efficiency, and integrity of NRC programs and operations.




Hubert T. Bell


                                                                                                      
Inspector General


                                                                      October 1, 2006 – March 31, 2007
ii
NRC OIG Semiannual Report
                                                                                                CONTENTS
Highlights ...................................................................................................................v
OIG Organization and Activities . ..........................................................................1
	     NRC’s Mission ....................................................................................................1
	     OIG Mission and Strategies ...............................................................................2
		          Inspector General History ...........................................................................2
		          OIG Mission ..................................................................................................2
		          Audit Program ...............................................................................................3
		          Investigative Program ...................................................................................4
	     OIG General Counsel Activities . ......................................................................6
		          Regulatory Review ........................................................................................6
	     Other Activities ...................................................................................................7
		          Participation in a Federal Bar Association Conference ...........................7
		          Japanese Nuclear Safety Commission Meets with the
		          Office of the Inspector General ...................................................................7
		          OIG Senior Official Retires...........................................................................8
		          AIGI Joseph A. McMillan Addresses Regional
		          Staff Members.................................................................................................8
Audits .........................................................................................................................9
	     Audit Summaries . ...............................................................................................9
	     Audits In Progress .............................................................................................18
Investigations ...........................................................................................................23
	     Investigative Case Summaries .........................................................................23
Statistical Summary of OIG Accomplishments .................................................31
	     Investigative Statistics .......................................................................................31
	     Audit Listings . ...................................................................................................33
	     Audit Tables . ......................................................................................................35
Abbreviations and Acronyms . ..............................................................................41
Reporting Requirements ........................................................................................43

                                                                                                                                    iii
                                                                                           October 1, 2006 – March 31, 2007
iv
NRC OIG Semiannual Report
                                                                    HIGHLIGHTS
The following two sections highlight selected audits and investigations completed
during this reporting period. More detailed summaries appear in subsequent
sections of this report.

AUDITS
•	 The Chief Financial Officers Act requires the OIG to annually audit NRC’s
   principal financial statements. An independent public accounting firm, with
   OIG oversight, conducted the audit.

•	 NRC uses an automated badging and card reader system to control access
   within NRC’s headquarters, regional offices, and the Technical Training
   Center (TTC). OIG audited this system to determine whether the current
   badge access system meets its required operational capabilities and provides
   for the security, availability, and integrity of the system data.

•	 NRC’s current fuel cycle facility oversight program relies primarily on
   inspections. Inspections at fuel cycle facilities occur several times a year and
   typically cover activities such as nuclear criticality control, chemical process,
   emergency preparedness, fire safety, and radiation safety. OIG audited this
   program to determine if NRC has an effective and efficient approach to fuel
   cycle facility oversight.

•	 NRC’s TTC provides training in specific areas including, reactor technology,
   probabilistic risk assessment, engineering support, radiation protection and
   fuel cycle technology. OIG audited the TTC to assess its effectiveness in
   (1) providing training to NRC staff, and (2) carrying out its administrative
   responsibilities.

•	 The events of September 11 made it clear that terrorists have the patience and
   ability to plan and conduct devastating attacks in the United States. After that
   event, NRC acted immediately to begin addressing physical security in the
   byproduct material program. This report consolidates the significant findings
   from two previous OIG reports on nuclear material security. Specifically,
   this report reexamined the question of how effectively NRC has examined
   its internal process for potential security vulnerabilities.


                                                                                                 
                                                                     October 1, 2006 – March 31, 2007
                 INVESTIGATIONS
                 •	 OIG conducted an investigation into allegations that over the past 14 years,
                    the NRC has allowed fire protection safety violations to occur at the Shearon
                    Harris Nuclear Power Plant.

                 •	 OIG conducted an investigation into information that an NRC Physical
                    Security Inspector attempted to solicit employment from licensee employees
                    at the Nuclear Fuel Services facility in Erwin, Tennessee.

                 •	 OIG completed an investigation into concerns regarding the availability to
                    the public of sensitive NRC documents contained in Local Public Document
                    Room microfiche files across the Nation.

                 •	 OIG conducted an investigation into concerns by the New Jersey Department
                    of Environmental Protection (NJDEP) officials regarding decommission-
                    ing plans submitted by two NRC licensees, Heritage Minerals, Inc., and
                    Shieldalloy Metallurgical Corporation.

                 •	 OIG completed an investigation into allegations that NRC Region II staff
                    had failed to address security vulnerability concerns at the Sequoyah Nuclear
                    Power Plant in March 2006, which resulted in another security incident at
                    the plant in June 2006.

                 •	 OIG completed an investigation based on a review of the NRC Administrative
                    Services Center, Metro Subsidy Program, which developed information
                    that Metrochek subsidies had been issued in the names of former NRC
                    employees.

                 •	 OIG completed a review of the NRC’s Drug-Free Workplace Program Plan
                    after receiving concerns that the agency was not operating its program in
                    compliance with applicable Federal guidance and requirements.




vi
NRC OIG Semiannual Report
   OIG ORGANIZATION AND ACTIVITIES
NRC’S MISSION
The U.S. Nuclear Regulatory Commission (NRC) was formed in 1975 to regulate
the various commercial and institutional uses of nuclear materials by the Energy
Reorganization Act of 1974. The agency succeeded the Atomic Energy Commis-
sion, which previously had responsibility for both
developing and regulating nuclear activities.

NRC’s mission is to regulate the Nation’s civil-
ian use of byproduct, source, and special nuclear
materials to ensure adequate protection of public
health and safety, promote the common defense
and security, and protect the environment. NRC’s
regulatory mission covers three main areas:

•	 Reactors - Commercial reactors for generating
   electric power and research and test reactors
   used for research, testing, and training.     U.S. NRC Headquarters in Rockville, MD.

•	 Materials - Uses of nuclear materials in medical, industrial, and academic
   settings and facilities that produce nuclear fuel.

•	 Waste - Transportation, storage, and disposal of nuclear materials and waste,
   and decommissioning of nuclear facilities from service.

Under its responsibility to protect public health and safety, NRC has three principal
regulatory functions: (1) establish standards and regulations, (2) issue licenses
for nuclear facilities and users of nuclear materials, and (3) inspect facilities and
users of nuclear materials to ensure compliance with the requirements. These
regulatory functions relate to both nuclear power plants and other uses of nuclear
materials – like nuclear medicine programs at hospitals, academic activities at
educational institutions, research work, and such industrial applications as gauges
and testing equipment.

NRC places a high priority on keeping the public informed of its work. The agency
maintains a current Web site and a public document room in Rockville, Maryland



                                                                                                  
                                                                      October 1, 2006 – March 31, 2007
                 (NRC headquarters) and holds public hearings, public meetings in local areas
                 and at NRC offices, and discussions with individuals and organizations.

                 OIG MISSION AND STRATEGIES
                 Inspector General History

                 In the 1970s, Government scandals, oil shortages and stories of corruption covered
                 by newspapers, television, and radio stations took a toll on the American public’s
                 faith in its Government. The U.S. Congress knew it had to take action to restore
                 the public’s trust. It had to increase oversight of Federal programs and opera-
                 tions. It had to create a mechanism to evaluate the effectiveness of Government
                 programs. And, it had to provide an independent voice for economy, efficiency
                 and effectiveness within the Federal Government that would earn and maintain
                 the trust of the American people.

                 In response, President Jimmy Carter in 1978 signed into law the landmark
                 legislation known as the Inspector General Act (IG Act). The IG Act created inde-
                 pendent Inspectors General (IGs), who would: protect the integrity of Government;
                 improve program efficiency and effectiveness; prevent and detect fraud, waste and
                 abuse in Federal agencies; and keep agency heads, Congress, and the American
                 people fully and currently informed of the findings of the IGs’ work.

                 Almost 30 years later, the IG concept is a proven success. The IGs continue to
                 deliver significant benefits to our Nation. Thanks to IG audits and inspections,
                 billions of dollars have been returned to the Federal Government or have been
                 better spent based on recommendations identified through those audits and in-
                 spections. IG investigations have also contributed to the prosecution of thousands
                 of wrongdoers. In addition, the IG concept of good governance, accountability
                 and monetary recoveries encourages foreign governments to seek our advice, with
                 the goal of replicating the basic IG principles in their own governments.

                 OIG Mission

                 NRC’s OIG was established as a statutory entity on April 15, 1989, in accordance
                 with the 1988 amendment to the IG Act. NRC OIG’s mission is to (1) indepen-
                 dently and objectively conduct and supervise audits and investigations relating



NRC OIG Semiannual Report
to NRC programs and operations; (2) prevent and detect fraud, waste, and abuse;
and (3) promote economy, efficiency, and effectiveness in NRC programs and
operations.

OIG is committed to ensuring the integrity of NRC programs and operations.
Developing an effective planning strategy is a critical aspect of accomplishing
this commitment. Such planning ensures that audit and investigative resources
are used effectively. To that end, OIG developed a Strategic Plan that includes
the major challenges and critical risk areas facing NRC.

The plan identifies the priorities of OIG and establishes a shared set of expecta-
tions regarding the goals OIG expects to achieve and the strategies that will be
employed to do so. OIG’s Strategic Plan features three goals which generally align
with NRC’s mission and goals:

1.	 Advance NRC’s efforts to enhance safety and protect the environment.

2.	 Enhance NRC’s efforts to increase security in response to the current threat
    environment.

3.	 Improve the economy, efficiency, and effectiveness of NRC corporate
    management.

Audit Program

The OIG Audit Program covers the management and financial operations,
economy or efficiency with which an organization, program, or function is
managed; and program results achieved. For this program, auditors assess the
degree to which an organization complies with laws, regulations, and the internal
policies in carrying out programs, and they test program effectiveness as well
as the accuracy and reliability of financial statements. The overall objective of
an audit is to identify ways to enhance agency operations and promote greater
economy and efficiency. Audits comprise four phases:

•	 Survey phase - An initial phase of the audit process is usually to gather infor-
   mation, without detailed verification, on the agency’s organization, programs,
   activities, and functions. An assessment of vulnerable areas determines whether
   further review is needed.

                                                                                                
                                                                    October 1, 2006 – March 31, 2007
                 •	 Verification phase - Detailed information is obtained to verify findings and
                    support conclusions and recommendations.

                 •	 Reporting phase - The auditors present the information, findings, conclusions,
                    and recommendations that are supported by the evidence gathered during the
                    survey and verification phases. Exit conferences are held with management
                    officials to obtain their views on the issues in the report. Comments from the
                    exit conferences are presented in the published audit report, as appropriate.
                    Formal written comments are included in their entirety as an appendix in
                    the published audit report.

                 •	 Resolution phase - Positive change results from the resolution process in
                    which management takes action to improve operations based on the recom-
                    mendations in the published audit report. Management actions are monitored
                    until final action is taken on all recommendations. When management and
                    OIG cannot agree on the actions needed to correct a problem identified in
                    an audit report, the issue can be taken to the Chairman for resolution.

                 Each September, OIG issues an Annual Plan that summarizes the audits planned
                 for the coming Fiscal Year (FY). Unanticipated high priority issues may arise that
                 generate audits not listed in the Annual Plan. OIG audit staff continually monitor
                 specific issue areas to strengthen OIG’s internal coordination and overall planning
                 process. Under the OIG Issue Area Monitor (IAM) program, staff designated as
                 IAMs are assigned responsibility for keeping abreast of major agency programs
                 and activities. The broad IAM areas address nuclear reactors, nuclear materials,
                 nuclear waste, international programs, security, information management, and
                 financial management and administrative programs.

                 Investigative Program

                 OIG’s responsibility for detecting and preventing fraud, waste, and abuse within
                 NRC includes investigating possible violations of criminal statutes relating to
                 NRC programs and activities, investigating misconduct by NRC employees,
                 interfacing with the Department of Justice on OIG-related criminal matters, and
                 coordinating investigations and other OIG initiatives with Federal, State, and
                 local investigative agencies and other OIGs. Investigations may be initiated as a
                 result of allegations or referrals from private citizens; licensee employees; NRC



NRC OIG Semiannual Report
employees; Congress; other Federal, State, and local law enforcement agencies;
OIG audits; the OIG Hotline; and IG initiatives directed at areas bearing a high
potential for fraud, waste, and abuse.

Because NRC’s mission is to protect the health and safety of the public, one
of the Investigation unit’s main focus and use of resources is investigations of
alleged conduct by NRC staff that could adversely impact
the agency’s handling of matters related to health and safety.
These investigations may include allegations of:

•	 Misconduct by high ranking NRC officials and other
   NRC officials, such as managers and inspectors, whose
   positions directly impact public health and safety.

•	 Failure by NRC management to ensure that health and
   safety matters are appropriately addressed.

•	 Failure by NRC to appropriately transact nuclear reg- OIG agent providing investigative
   ulation publicly and candidly and to openly seek and support.
   consider the public’s input during the regulatory process.

•	 Conflict of interest by NRC employees with NRC contractors and licensees
   involving such matters as promises of future employment for favorable or
   inappropriate treatment and the acceptance of gratuities.

•	 Fraud in the NRC procurement program involving contractors violating
   Government contracting laws and rules.

OIG has also implemented a series of proactive initiatives designed to iden-
tify specific high-risk areas that are most vulnerable to fraud, waste, and abuse.
A primary focus is electronic-related fraud in the business environment. OIG
is committed to improving the security of this constantly changing electronic
business environment by investigating unauthorized intrusions and computer-
related fraud, and by conducting computer forensic examinations. Other proactive
initiatives focus on determining instances of procurement fraud, theft of property,
Government credit card abuse, and fraud in Federal programs.




                                                                                                
                                                                    October 1, 2006 – March 31, 2007
                 OIG GENERAL COUNSEL ACTIVITIES
                 Regulatory Review

                 Pursuant to the Inspector General Act, 5 U.S.C. App. 3, Section 4(a)(2),
                 OIG reviews existing and proposed legislation, regulations, and implementing
                 Management Directives (MD) as well as policy issues, and makes recom-
                 mendations concerning their impact on the economy and efficiency of agency
                 programs and operations.

                 From October 1, 2006, through March 31, 2007, OIG reviewed more than 250
                 agency documents, including approximately 120 Commission papers (SECYs),
                 Staff Requirements Memoranda, and 130 Federal Register Notices, regulatory
                 actions, and statutes. The most significant commentaries are summarized
                 below:

                 Management Directive (MD) 9.14, Organization and Functions, Office of
                 International Programs, addresses a vital program and as a result, guidance
                 provided must be useable and comprehensive. OIG remarks focused on the
                 need for more specific and detailed information in the directive. Further, the
                 OIG suggested inclusion of additional guidance and definitions for referenced
                 processes and organizations.

                 Management Directive 8.8, Management of Allegations, addresses a critical agency
                 function, and was generally well constructed and comprehensive. The OIG
                 comments related the need for inclusion of information on relevant OIG respon-
                 sibilities and employee reporting requirements for matters within the purview
                 of the Inspector General.

                 To effectively track the agency’s response to regulatory review comments, OIG
                 requests written replies within 90 days, with either a substantive reply or status
                 of issues raised by OIG. During this reporting period, the agency forwarded
                 seven substantive responses to OIG’s regulatory comments on draft management
                 directives, as well as draft training plans, and Office of the Executive Director for
                 Operations procedures.





NRC OIG Semiannual Report
OTHER ACTIVITIES
Participation in a Federal Bar Association Conference

On February 16, 2007, Maryann L. Grodin, General Counsel to the NRC
Inspector General, served on a Federal Bar Association, Labor and Employment
Law Section panel titled, “Privacy in the Workplace, Untangling the Web of
Privacy Issues.” Panel members spoke on Electronic Privacy and Health
Insurance Portability and Accountability Act matters, and Ms. Grodin addressed
Privacy and Public Employment Issues. The panel enumerated and discussed
the dozens of statutes and regulations currently pertaining to dissemination and
protection of information as well as recent case law results.

Japanese Nuclear Safety Commission
Meets with the Office of the
Inspector General

On March 15, 2007, representatives from the
Japanese Nuclear Safety Commission(NSC) met
with members of the NRC OIG. The NSC rep-
resentatives were Kazuhiko Wakasugi and Junko
Sugaya. The purpose of this meeting was to exchange
information about understanding regulatory review
and audit practices.

In the morning, the Japanese delegation attended
NRC’s Regulatory Information Conference. The
Conference was an opportunity for the NRC, the      Representatives from the Japanese NSC met
nuclear industry, and other agency stakeholders to  with members of the NRC OIG. Pictured
discuss and exchange information in areas regarding left to right are Anthony Lipuma, NRC OIG;
nuclear safety initiatives and regulatory issues.   Kazuhiko Wakasugi, Japanese NSC;
                                                    Junko Sugaya, Japanese NSC; and
In the afternoon, OIG staff discussed the Inspector Stephen Dingbaum, NRC OIG.
General Act of 1978 (Act) as the cornerstone for
the existence of Inspectors General. They further
explained the role of OIG’s audit component in meeting the requirements of the
Act. Of particular interest to the NSC representatives was an explanation of the


                                                                                              
                                                                  October 1, 2006 – March 31, 2007
                 operational independence of the OIG, its access to information, and its role in
                 relation to the Government Accountability Office. In addition to describing its
                 roles and responsibilities, OIG staff provided a historical account of the office’s
                 role in auditing the agency’s programs. OIG staff also explained the evolution
                 of nuclear regulation including how the agency interacts with its stakeholders
                 including Congress, other Federal agencies, the nuclear industry, and the public
                 at large.

                 NSC representative members found the information useful, particularly the re-
                 lationship of OIG with the rest of NRC, the evolution of nuclear regulation, and
                 the training provided to OIG staff to maintain audit proficiency.

                 OIG Senior Official Retires

                                    Russ Irish retired from the NRC OIG on March 17, 2007, after
                                    18 years with this office. Russ started his career in the nuclear
                                    power industry with the construction of the Byron Nuclear
                                    Power Plant. When construction finished, Russ took an audit
                                    position with the Tennessee Valley Authority, Office of Inspector
                                    General. In 1989, he started with the NRC OIG as an auditor
                                    and held increasingly responsible positions, retiring as the
                                    Senior Level Assistant for Audit Operations.

                 His leadership, professionalism, expertise, and enthusiasm will be missed.

                 AIGI Joseph A. McMillan Addresses Regional Staff Members

                 The Assistant Inspector General for Investi-
                 gations (AIGI) recently met with NRC staff
                 members throughout the four regional offices.
                 The meetings were designed to provide insight
                 into NRC OIG investigations as well as to elicit
                 feedback from the staff regarding any concerns
                 or perceptions.

                                                                    AIGI Joseph A. McMillan
                                                                    Addresses Region III Staff
                                                                    Members


NRC OIG Semiannual Report
                                                                                   AUDITS
To help the agency improve its effectiveness and efficiency during this period, OIG
completed 12 financial and performance audits or evaluations that resulted in
numerous recommendations to NRC management. OIG also analyzed 5 contract
audit reports.

AUDIT SUMMARIES
Inspector General’s Assessment of the Most Serious Management and
Performance Challenges Facing NRC

OIG Strategic Goal: Corporate Management

On January 24, 2000, Congress enacted the Reports Consolidation Act of 2000
requiring Federal agencies to provide financial and performance management
information in a more meaningful and useful format for Congress, the President,
and the public. The Act requires that the Inspector General of each Federal agency
annually summarize what he or she considers to be the most serious management
and performance challenges facing the agency and assess the agency’s progress
in addressing those challenges. Congress left the determination and threshold
of what constitutes a most serious management and performance challenge to
the discretion of the Inspectors General.

The Inspector General, in his submission, defined serious management and
performance challenges as mission critical areas or programs that have the
potential for a perennial weakness or vulnerability that, without substantial manage-
ment attention, would seriously impact agency operations or strategic goals.

Assessment Results: Based on the adopted criteria, the Inspector General revised
his list of the most serious management and performance challenges, identifying
the following nine challenges that are considered to be the most serious. Eight of
the nine challenges are essentially the same as last year. However, this year the
Inspector General identified a new management and performance challenge, the
ninth, titled “Ability to meet the demand for licensing new reactors.”

In addition, the Inspector General identified one 2005 management challenge,
“Intra-agency communication (up, down, and across organizational lines),” to be
removed as a result of the various actions taken by the NRC to improve internal
communications.

                                                                                                  
                                                                      October 1, 2006 – March 31, 2007
MANAGEMENT CHALLENGES

         NRC’s Most Serious Management Challenges as of September 30, 2006
 Challenge 1                                                Challenge 6
 Protection of nuclear material used for civilian purposes. Administration of all aspects of financial management.

 Challenge 2                                               Challenge 7
 Protection of information.                                Communication with external stakeholders
                                                           throughout NRC regulatory activities.

 Challenge 3                                               Challenge 8
 Development and implementation of a risk-informed         Managing human capital.
 and performance-based regulatory approach.

 Challenge 4                                               Challenge 9
 Ability to modify regulatory processes to meet a          Ability to meet the demand for licensing new reactors.
 changing environment.

 Challenge 5                                                      The most serious management and
 Implementation of information resources.                         performance challenges are not ranked in any
                                                                  order of importance.


Although the nine challenges identified are distinct, they are also interdependent. The overarching
challenge of managing human capital is the cornerstone to effectively addressing all other manage-
ment and performance challenges. The NRC continues to address these challenges in its planning
and day-to-day activities.




10
NRC OIG Semiannual Report
Audit of the Nuclear Regulatory Commission’s Financial Statements
for the Fiscal Years 2006 and 2005

OIG Strategic Goal: Corporate Management

The Chief Financial Officers Act requires the Inspector General to annually
audit the NRC’s principal financial statements in accordance with applicable
standards. In addition, the audit evaluated the effectiveness in internal controls
over financial reporting and the agency’s compliance with laws and regulations.
An independent public accounting firm, under contract to the OIG, conducted
the audit with OIG oversight.

Audit Results:

Financial Statements

•	 The auditors expressed an unqualified opinion on the agency’s Fiscal Years
   2006 and 2005 financial statements.

Internal Controls Over Financial Reporting

•	 The auditors expressed a qualified opinion on the agency’s internal controls
   over financial reporting.

•	 The auditors cited NRC’s Fee Billing System as a continuing material weakness
   which precludes NRC’s internal controls from providing reasonable assurance
   that material misstatements in the financial statements will be prevented and
   detected on a timely basis.

•	 The auditors also cited Information System-wide Security Controls as a new
   material weakness. Specifically, most of the information systems have not
   undergone contingency plan testing, and a majority lack current certification
   and accreditation to operate.

Compliance with Laws and Regulations

•	 The agency continues to be noncompliant with the provisions of Office of
   Management and Budget Circular A-25, User Charges, regarding the calcu-
   lation of Title 10 Code of Federal Regulations, Part 170, hourly rates. The

                                                                                           11
                                                                   October 1, 2006 – March 31, 2007
                    auditors also identified a continuing substantial noncompliance related to
                    the Fee Billing System. (Addresses Management Challenge #6)

                 Social Engineering Assessment

                 OIG Strategic Goal: Security

                 OIG conducted tests to determine specific weaknesses and vulnerabilities
                 with the NRC’s physical, personnel, and network access controls. These tests
                 were designed to simulate social engineering attempts to infiltrate and exploit
                 vulnerabilities on three distinct attack vectors (telephonic, cyber, and physical)
                 within the NRC security infrastructure. The assessment was performed with the
                 benefit of contracted support. It was undertaken with the intent that it would serve
                 as the basis by which the OIG could further assess the NRC security environment
                 and where necessary recommend enhancements to existing controls.

                 Assessment Results: NRC has in general developed strong security programs
                 and practices that, if followed, provide barriers to attackers. NRC has also taken
                 measures to ensure that its main information systems are protected against un-
                 authorized access and access attempts. Further discussion of this report’s findings
                 and recommendations cannot take place in this unclassified forum because it
                 contains sensitive security information. (Addresses Management Challenge #2)

                 Audit of NRC’s Badge Access System

                 OIG Strategic Goal: Security

                 The photo-identification/key card badge is an integral part of the NRC’s physical
                 security program. In addition to containing personal identification information,
                 the badge is a programmable key card for controlling building/area access at
                 headquarters, each of the regional offices, and the Technical Training Center (TTC).
                 All badge manufacturing is done at headquarters, and specific access rights are
                 assigned to each badge via headquarters, regional, and TTC access control systems.
                 Based on the level of rights assigned, employees and contractors place their key
                 cards against card readers to gain entry to various parts of the buildings and, in
                 some cases, during specific times of the day. NRC currently uses barium ferrite
                 cards and readers. NRC refers to its system as the Access Control and Computer
                 Enhanced Security System/Photo Identification Computer System (ACCESS).

12
NRC OIG Semiannual Report
The objective of this audit was to determine whether the current badge access
system meets its required operational capabilities and provides for the security,
availability, and integrity of the system data.

Audit Results: NRC’s badge access system is capable of providing effective support
for NRC’s physical security program. However, specific cost-effective actions are
needed to enhance this legacy system’s usage at NRC until a planned replacement
system is implemented. OIG identified the following shortcomings with regard
to ACCESS and related badge accountability processes:

•	 Weaknesses exist concerning system user access.

•	 The system contains inaccurate data concerning special access areas and the
   current employee population.

•	 Badge accountability measures are inadequate.

•	 System documentation is incomplete or missing to include lack of follow-up
   on penetration results.

•	 TTC lacks a backup power supply for ACCESS.

These problems exist because concerns about ACCESS are overshadowed by the
agency’s plan to replace the system as part of its Homeland Security Presidential
Directive-12 (HSPD-12) solution. Left unaddressed, these weaknesses undermine
the effectiveness of NRC’s physical security approach to control access into and
within NRC facilities. (Addresses Management Challenge #5)

Audit of NRC’s Regulation of Nuclear
Fuel Cycle Facilities

OIG Strategic Goal: Safety

The NRC’s current fuel cycle facility safety
oversight program relies primarily on
inspections focused on reviews of safety,
safeguards, and environmental protec-
tion. This program applies to gaseous          The Nuclear Fuel Cycle Process.


                                                                                              13
                                                                      October 1, 2006 – March 31, 2007
                 diffusion plants, highly enriched uranium fuel fabrication facilities, low-enriched
                 uranium fuel fabrication facilities, and uranium hexafluoride production facili-
                 ties. Inspections at fuel cycle facilities occur several times a year and typically
                 cover activities such as nuclear criticality control, chemical process, emergency
                 preparedness, fire safety, and radiation safety. NRC’s inspection results are docu-
                 mented in inspection reports.

                 This audit’s objective was to determine if NRC has an effective and efficient
                 approach to fuel cycle facility oversight.

                 Audit Results: The agency’s current Fuel Cycle Facility Oversight Program would
                 be enhanced by developing and implementing a framework that is modeled after
                 a structured process, such as the process that NRC established for operating
                 reactors. NRC staff identified needed improvements in its oversight program for
                 regulating fuel cycle facilities. To address this issue, NRC staff began developing
                 a structured process that emulated the reactor oversight process. However, NRC
                 stopped short of fully developing and implementing a framework and imple-
                 menting improvements that would enhance NRC’s Fuel Cycle Facility Oversight
                 Program. These staff-identified improvements would:

                 •	 Reduce regulatory burden,

                 •	 Increase effectiveness, efficiency, and realism,

                 •	 Increase public confidence,

                 •	 Provide objective assessments,

                 •	 Provide predictable and timely responses to licensee performance, and

                 •	 Improve licensee safety performance.

                 Absent action to implement these improvements, the framework for regulating
                 fuel cycle facilities is not as robust as it could be. (Addresses Management
                 Challenge #3)




14
NRC OIG Semiannual Report
Audit of NRC’s Technical Training Center

OIG Strategic Goal: Corporate Management

When the NRC was established in 1974, it provided technical training at its
Headquarters in Bethesda, Maryland. Pursuant to recommendations following
the accident at the Three Mile Island nuclear power plant, NRC moved its technical
training to Chattanooga, Tennessee. The Technical
Training Center (TTC) provides training in specific
areas including, reactor technology, probabilistic
risk assessment, engineering support, radiation
protection and fuel cycle technology.

The objective of this audit was to identify oppor-
tunities to improve the economy, efficiency, and
effectiveness of the TTC’s operations.

Audit Results: Collectively, TTC instructors are
knowledgeable, experienced and enthusiastic.
While agency officials and former TTC students
                                                  The Technical Training Center in
were generally pleased with the training provided
                                                  Chattanooga, Tennessee.
by TTC, OIG identified opportunities for improve-
ment in the following areas:

•	 Inventory practices for NRC equipment,

•	 Completeness and currency of policies and procedures,

•	 Maintenance of training materials,

•	 Scheduling course revisions,

•	 Instructor training and rotation, and

•	 Tracking and trending of course evaluations.

Addressing these areas will improve the efficiency and effectiveness of TTC’s
training program and better prepare NRC for significant operational challenges
that lie ahead. (Addresses Management Challenge #8)

                                                                                            15
                                                                    October 1, 2006 – March 31, 2007
                 Summary Report and Perspectives on Byproduct Material Security
                 and Control

                 OIG Strategic Goals: Safety and Security

                 The events of September 11 made it clear that terrorists have the patience
                 and ability to plan and conduct devastating attacks in the United States. After
                 that event, the NRC acted immediately to begin addressing physical security
                 in the byproduct material program. NRC implemented or has planned a vari-
                 ety of measures to regulate, provide for, and improve the security of byproduct
                 material, to include:

                 •	 Issuance of a series of advisories and security-related orders that addressed
                    the importance of the security and control of licensed material,

                 •	 Continued development of the National Source Tracking System,

                 •	 Instituted background checks of certain licensees,

                 •	 Shared licensee information with other Federal agencies, and

                 •	 Chaired and participated in a multi-agency task force on radiation source
                    protection and security.

                 Audit Results: Despite these efforts, the agency can do more to identify and
                 evaluate byproduct material security risks. Specifically, the NRC should undertake
                 an impartial and comprehensive look inward at its own business and regulatory
                 processes. Such an assessment should include examination of the management,
                 operational, and technical security controls and the extent to which these controls
                 are (1) implemented correctly, (2) operating as intended, and (3) producing the
                 desired outcome with respect to mitigating security vulnerabilities. Without such
                 an assessment, the agency is not aware of potential weaknesses and vulnerabilities
                 in its byproduct material security program. An independent perspective would
                 serve to validate or provide suggested improvements for the agency’s ongoing
                 byproduct material efforts. (Addresses Management Challenges #1, #3, and #4)




16
NRC OIG Semiannual Report
Audit of NRC’s Nuclear Material Events Database

OIG Strategic Goal: Safety

The Nuclear Materials Events Database (NMED) contains a historical collection
of information on the occurrence, description, and resolution of events involving
the use of radioactive materials in the United States. NMED accommodates the
sharing of material event data submitted by Agreement States, non-Agreement
States, and NRC licensees. NMED provides users with search capabilities to
analyze its data. NRC staff use NMED data for a variety of reasons, including
inspections, performance metrics, and trend analysis. An agency contractor
is responsible for data entry, coding, and quality control of the data which is
obtained from NRC and material licensee reports.

Audit Results: OIG found that, in general, the NMED system works as intended
and is a benefit to the agency. That is, NRC is using NMED as a data repository
for licensee materials events. However, some concerns with a related system,
the Fuel Cycle Nuclear Material Events Database (FCNMED) were identified.
Specifically, the FCNMED lacks formalized guidance and appropriate oversight.
Furthermore, through January 2008, NRC has budgeted about $52,000 in contract
dollars for FCNMED, but the agency is not fully using the system to achieve the
maximum benefit for its money.

There are several conditions that preclude FCNMED from being used as intended.
Specifically:

•	 Many NRC staff members are not aware that FCNMED exists and are not
   accessing its data,

•	 The FCNMED data available to NRC staff is updated on a monthly basis,
   and

•	 There is limited assurance that the FCNMED data is complete.

Because there are no written FCNMED procedures for NRC staff and no one
is officially the database content coordinator, NRC’s trending, performance




                                                                                           17
                                                                   October 1, 2006 – March 31, 2007
                  metrics, and regulatory analyses may not include all pertinent fuel cycle data. As
                  a result, NRC could be missing precursors to significant issues. Although the lack
                  of these controls may not be critical at this time, it could become an issue should
                  the nuclear industry, including the fuel cycle program, grow as is forecasted.
                  (Addresses Management Challenge #3)

                  AUDITS IN PROGRESS
                  Audit of the Nuclear Power Plant License Renewal Program

                  OIG Strategic Goal: Safety

              The Atomic Energy Act provides for a license period of 40 years for commercial
              nuclear power plants, but includes provisions for extending the license beyond
              this initial period. This original 40-year term for reactor licenses was based on
              economic and antitrust considerations--not on limitations of nuclear technol-
                                ogy. Due to this selected time period, however, some structures
                                and components may have been engineered on the basis of an
 ...the expectation is          expected 40-year service life. The maximum renewal period of
 that a large number            licenses is for an additional 20 years. The first original operating
                                license expired in the year 2006; approximately 13 percent will
 of applications will           expire by the end of the year 2012 and more than 36 percent will
                                expire by the year 2015. At this time, there are approximately
 be reviewed over the 24 completed applications, 7 applications under review, and 25
                                letters of intent to seek license renewal.
 next decade.
                                   The agency has an accumulated experience with the license renewal
                                   process, and the expectation is that a large number of applications
                  will be reviewed over the next decade. The reactors currently in operation are the
                  first generation of power reactors. Operation of these plants beyond 40 years and
                  upwards to 60 years introduces the potential that new aging phenomena could
                  be observed in the next two decades.

                  The objective of this audit is to determine the effectiveness of license renewal
                  reviews using standards existing in various agency documents and regulations.
                  (Addresses Management Challenges #1 and #3)



18
NRC OIG Semiannual Report
Audit of the Nuclear Power Plant Power Uprate Program

OIG Strategic Goal: Safety

NRC regulates the maximum power level at which a commercial nuclear power
plant may operate. The process of increasing the maximum power level at which
a plant may operate is called a power uprate. There are three categories of power
uprates, including (1) measurement uncertainty recapture power uprates, which
are less than 2 percent and are achieved by implementing enhanced techniques
for calculating reactor power; (2) stretch power uprates, which are typically up to
7 percent and are within the design capacity of the plant, and (3) extended power
uprates which have been approved for increases as high as 20 percent. Extended
power uprates often require significant modifications to plant equipment, such
as the high-pressure turbines, condensate pumps and motors, main generators,
and transformers.

Licensees seek permission to perform a power uprate by submitting a license
application amendment to NRC. Since 1977, NRC has approved over 110 power
uprates, resulting in a combined increase of over 4,900 megawatts electric to
the Nation’s electric generating capacity. NRC anticipates as many as 25 power
uprate applications during the next 5 years. Some of these future power uprate
requests may be for plants that have been approved or may seek approval of a
license renewal to operate plants for 20 additional years beyond their original
40-year license term.

The objective of this audit is to examine the support and justification for approv-
ing power uprate amendment applications. (Addresses Management Challenges
#1 and #3)

Audit of NRC’s Enforcement Program

OIG Strategic Goal: Safety

The NRC’s enforcement jurisdiction is drawn from the Atomic Energy Act of
1954, as amended, and the Energy Reorganization Act of 1974, as amended. In
recognition that violations occur in a variety of activities and have varying levels
of significance, the Commission set out to create an enforcement framework


                                                                                             19
                                                                     October 1, 2006 – March 31, 2007
                 with graduated sanctions to reflect this diversity. The Commission’s first public
                 statement of policy on enforcement (the first Enforcement Policy) was published
                 in 1980. Although the policy statement has changed several times, two goals of
                 the enforcement program remain unchanged: to emphasize the importance of
                 compliance with regulatory requirements; and, to encourage prompt identification,
                 and prompt, comprehensive correction of violations. The enforcement program
                 is also intended to meet the agency’s performance goals.

                 Violations are identified through inspections and investigations. All violations
                 are subject to civil enforcement action and may also be subject to criminal
                 prosecution. After an apparent violation is identified, it is assessed in accor-
                 dance with the Commission’s Enforcement Policy. Because the policy statement
                 is not a regulation, the Commission may deviate from the Enforcement Policy as
                 appropriate under the circumstances of a particular case.

                 The objectives of this audit are to determine how NRC assesses (1) the significance
                 of violations, and (2) the level of enforcement action to be taken. (Addresses
                 Management Challenges #1 and #3)

                 Audit of the Emergency Preparedness Program

                 OIG Strategic Goals: Safety and Security

                 Emergency Preparedness (EP) measures are designed to address a wide range
                 of event scenarios. Following the events of 9/11, the NRC evaluated the EP
                 planning basis, issued orders requiring compensatory measures for nuclear
                 security and safety, and observed license performance during security-based EP
                 drills and exercises and security force-on-force exercise evaluations. Based on
                 the information obtained through the drills and exercises, the staff determined
                 that the EP basis remains valid but recognized that security events differ from
                 accident-initiated events.

                 The objective of this audit is to assess the effectiveness of the EP program since it
                 has been incorporated into the Office of Nuclear Security and Incident Response.
                 (Addresses Management Challenge #1)




20
NRC OIG Semiannual Report
Audit of Security at NRC Headquarters

OIG Strategic Goal: Security

NRC buildings contain many security features and the
agency has increasingly hardened its protection against
access to its Headquarters (HQ). NRC HQ meets the U.S.
Department of Justice’s recommended minimum physical
security standards for Federal buildings. However, an
August 15, 2002, OIG report found that NRC needed to
further enhance HQ physical security and emergency
response capability to improve its ability to prevent un-
authorized individuals from accessing NRC space,
protect the facility from physical attack, and mitigate the
impact of an attack. Improvements were needed with regard Guard station behind NRC
to vehicle access control, building access control, and Headquarters in Rockville, MD
emergency preparedness.

The objective of this audit is to assess the adequacy of physical security measures
at NRC Headquarters for three main areas: physical security, emergency
preparedness, and written procedures. (Addresses Management Challenge #1)

Audit of Non-Capitalized Property

OIG Strategic Goal: Corporate Management

During FY 2001, OIG evaluated policies governing the accountability and control
of NRC’s non-capitalized information technology property. The review found
that property management policies for this equipment adhered to applicable
laws and regulations; however, management controls to implement these policies
were inadequate or lacking. In addition, the Property and Supply System, an
online interactive computer system that functions as the official database for the
agency’s property transactions, contained inaccurate information. During FYs
2004 and 2005, NRC developed the Space and Property Management System
(SPMS), a new property and supply system designed to replace the old system.
SPMS became operational on December 13, 2004, and final acceptance of the
system by the Office of Administration took place in June 2005.


                                                                                            21
                                                                    October 1, 2006 – March 31, 2007
                 NRC policy requires the effective and efficient management of property
                 including sufficient controls to deter or prevent loss through fraud, waste, or
                 misuse. This policy not only applies to property in the agency’s possession, but
                 also to property physically maintained by NRC’s contractors. As of June 14, 2006,
                 SPMS accounts for approximately 16,791 pieces of non-capitalized property with
                 an acquisition cost of approximately $28.2 million. This includes 4,256 pieces of
                 sensitive property such as laptops and personal digital assistants with an acquisi-
                 tion cost of approximately $4.3 million. (Addresses Management Challenge #6)

                 Audit of NRC’s Process for Placing Documents in the ADAMS Public
                 and Non-Public Libraries

                 OIG Strategic Goal: Corporate Management

                 NRC maintains many of its official records electronically in the Agencywide
                 Documents Access and Management System (ADAMS). NRC offices are
                 responsible for identifying which documents must be preserved as official
                 agency records and which of these records are to be maintained electronically in
                 ADAMS libraries. They are also responsible for determining which of these
                 records should be publicly available and marking them appropriately to ensure
                 they are housed in ADAMS public or non-public libraries. Such determinations
                 must be made for records generated internally by NRC staff and for mail sent
                 to NRC from external sources. About 5,300 records are added each month to
                 ADAMS, and about 45 percent of these are made publicly available.

                 In August 2006, a public interest group representative informed OIG of several
                 instances where NRC mistakenly assigned non-public availability to documents
                 that should have been made public. In addition, OIG learned of instances where
                 documents that should not be publicly available were found in ADAMS public
                 libraries. Subsequently, OIG initiated this audit, which was not included in the
                 OIG Annual Plan.

                 The audit objective is to determine the effectiveness and consistency by which
                 documents are profiled and processed for entry into the public or non-public
                 ADAMS libraries. (Addresses Management Challenges #2, #5, and #7)




22
NRC OIG Semiannual Report
                                                          INVESTIGATIONS
During this reporting period, OIG received 122 allegations, initiated 43 investigations
and closed 21 cases. In addition, the OIG made 31 referrals to NRC management
and 11 to the Department of Justice.

INVESTIGATIVE CASE SUMMARIES
Inadequate Handling of Fire Safety Violations at
Shearon Harris Nuclear Power Plant

OIG Strategic Goal: Safety

The OIG conducted an investigation into allegations in a Title 10 Code of Federal
Regulations (CFR), Section 2.206 petition submitted by public interest groups
requesting that the NRC staff take enforcement action against the Shearon Harris
Nuclear Power Plant (Shearon Harris) which is licensed by the Carolina Power
and Light Company. The petitioners requested that NRC take enforcement ac-
tion against Shearon Harris because of recurring fire safety violations which af-
fected safe shutdown functions of the plant. The petition asserted that the NRC
has allowed fire protection safety violations to continue for 14 years and has
“prioritized utility profits over public safety.”

OIG determined that the NRC had conducted quarterly and triennial inspections
at Shearon Harris for the last 14 years. OIG reviewed 85 inspection reports is-
sued by the NRC regarding Shearon Harris during the period December 1993
to October 2006. These reports documented NRC inspections of the Shearon
Harris fire protection program and identified fire safety issues at Shearon Harris.
OIG noted that the licensee has taken corrective actions in response to identified
fire safety issues.

OIG also found that in June 2004, Shearon Harris, along with 41 other nuclear
power plants, volunteered to participate in a pilot program to transition the plant
to meet the National Fire Protection Association Standard 805, a performance-
based standard for fire protection for light-water reactor electric generating plants.
Because Shearon Harris volunteered to participate in this pilot program, the
NRC is allowed to exercise enforcement discretion on fire safety-related issues.
During the enforcement discretion period (2005 to 2008) NRC has the flexibility
concerning whether to issue fire safety violations against Shearon Harris for fire
safety-related issues. (Addresses Management Challenge #1)

                                                                                                23
                                                                        October 1, 2006 – March 31, 2007
                 Security of Sensitive NRC Material Located at Former Local
                 Public Document Room Libraries

                 OIG Strategic Goal: Security

                 OIG completed an investigation into concerns regarding the availability of
                 sensitive NRC documents contained in microfiche files in public libraries across
                 the Nation. This issue was raised after a public interest group had purchased from
                 a community college a microfiche collection of NRC documents, which included
                 sensitive documents. The community college had obtained the microfiche
                 collection from a public library.

                 In April 1971, NRC implemented a Local Public Document Room (LPDR) program
                 which established document collections in libraries that were primarily located
                 near commercial nuclear power plants. The LPDR collections contained hard
                 copy documents pertaining only to the local site. In July 1990, NRC replaced
                 hard copy documents with a microfiche collection of all publicly available NRC
                 documents issued since January 1981 pertaining to all NRC licensees. Currently,
                 the microfiche collection contains approximately 2 million records related to
                 NRC regulatory activities nationwide that were issued to the public by NRC from
                 approximately January 1981 to October 1999.

                 In November 1999, NRC transitioned to a new electronic recordkeeping system,
                 the Agencywide Documents Access and Management System (ADAMS). As a
                 result of ADAMS, NRC stopped funding the LPDR program and informed LPDR
                 libraries that the agency was relinquishing ownership of the microfiche collec-
                 tions. Libraries had the option of keeping their collections or returning them to
                 the Government. While the majority of the LPDR libraries chose to maintain
                 their microfiche collections, several elected to transfer their collections to the
                 Government Printing Office Federal Depository Library Program libraries to
                 ensure permanent public access to this information.

                 Following the events of September 11, 2001, NRC reviewed sensitive documents
                 that were publicly available in the NRC Web site and its public portion of ADAMS,
                 the Publicly Available Records System (PARS). As a result, NRC removed from
                 PARS approximately 1,200 documents generated after 1999 that were considered,
                 from a post-September 11 perspective, to pose a security threat. At that time, NRC
                 was also aware that the microfiche collection in the LPDRs contained a number

24
NRC OIG Semiannual Report
of sensitive documents; however, a decision was made to not remove sensitive
documents contained in the microfiche collections. In 2004, NRC re-examined
ADAMS and removed additional sensitive information that was available to the
public. NRC also reviewed information located in another publicly accessible
component of ADAMS: the Public Legacy Library, which contains bibliographic
citations for microfiche versions of all documents issued publicly by NRC before
November 1, 1999. The Public Legacy Library enables an individual to locate
and retrieve a microfiche document by providing the LPDR microfiche address
for the document. Based on its review of the Public Legacy Library, the staff
removed approximately 10,000 bibliographic citations pertaining to special nuclear
material because this information revealed the location in the LPDR of sensitive
microfiche documents. However, the actual documents remained in the LPDR
microfiche collection.

To assess the status of the LPDR collections, OIG visited 27 of the 86 former
LPDRs located throughout the United States. OIG found that while the micro-
fiche collections at 27 libraries visited by OIG are available to members of the
public, the majority of the librarians interviewed by OIG were unfamiliar with the
NRC microfiche collections and the process for retrieving documents from these
collections. Additionally, OIG found that most of the microfiche documents
contained in the former LPDR collections are available from other sources
including public and Government databases as well as commercial vendors.

OIG found that the LPDR collections contain a number of documents that the
NRC has, since September 11, 2001, re-classified as Sensitive Unclassified Non-
Safeguards Information (SUNSI) and removed from public access through
ADAMS. However, the NRC staff has taken no action to remove these same
documents from public access through the LPDR microfiche collections because,
in their view, the documents have been widely available to the public and recent
upgrades in nuclear power plant protective strategies make these aged docu-
ments of minimal value to an adversary. The staff ’s rationale for not controlling
the documents in the LPDRs calls into question the legitimacy of continuing to
classify these documents as sensitive.

OIG learned that NRC’s inconsistent handling of documents considered sensitive
has also created concern among some public stakeholders. Specifically, while the
NRC staff will not release documents deemed as sensitive to a private citizen,

                                                                                            25
                                                                    October 1, 2006 – March 31, 2007
                 the staff has taken no action to restrict a citizen from obtaining the same docu-
                 ments from the former LPDRs. This inconsistency has created a perception that
                 the NRC may be using the continued classification of a number of documents
                 as SUNSI merely to exclude the public from participation in NRC proceedings
                 where these documents could be referenced.

                 OIG learned also that while the files in the former LPDRs contain approximately
                 2 million microfiche documents, a private citizen may locate particular documents
                 through inquiry into the public portion of ADAMS. By searching the ADAMS
                 historical citations (Public Legacy Library), an individual can obtain the micro-
                 fiche address of a specific document issued prior to November 1, 1999, and locate
                 the document address in the LPDR microfiche collection. This holds true for a
                 number of microfiche documents that had been removed from ADAMS because
                 of their sensitivity. (Addresses Management Challenges #1 and #4)

                 Inappropriate Solicitation of Employment by an NRC Inspector
                 to a Licensee

                 OIG Strategic Goal: Corporate Management

                 OIG conducted an investigation based on an allegation from a licensee employee at
                 Nuclear Fuel Services (NFS), in Erwin, Tennessee, that an NRC Physical Security
                 Inspector inappropriately solicited employment from the NFS staff. Specifically,
                 the NFS employee alleged that the NRC inspector mentioned to the NFS staff
                 that he could fix NFS’s security problems in exchange for employment at NFS.
                 Additionally, the NFS employee alleged that the NRC inspector provided NFS
                 staff with a note containing the NRC inspector’s home address. Based on the
                 note, the NFS employee believed that the NRC inspector was interested in a
                 position at NFS.

                 OIG determined that the NRC inspector did not solicit employment from the
                 NFS staff.

                 The NFS staff, to whom the NRC inspector allegedly made the comment about his
                 ability to fix the security problems at NFS, denied that they ever heard the NRC
                 inspector ask for employment or make the statement. In addition, OIG found
                 that the NRC inspector was conducting an inspection at NFS when he received

26
                 separate concerns which questioned the employment practices at NFS. As a part


NRC OIG Semiannual Report
of the NRC inspector’s review, he asked questions about the NFS employment
process, including where the applications were posted. The NFS employee did
not have the employment information readily available for the NRC inspector.
Therefore, the NRC inspector provided his home address on a note for the NFS
employee to allow the NFS employee to quickly mail to him the information
related to the NFS employment issues. OIG learned that it was acceptable for the
NRC inspector to provide his personal mailing address to the NFS employee to
facilitate receiving inspection information. Moreover, it would have also been
appropriate for the NRC inspector to have requested general information, such
as employment applications, from licensee employees for personal purposes.
(Addresses Management Challenge #1)

Inappropriate Regulation by NRC of Clean-Up of Radioactive
Waste in New Jersey

OIG Strategic Goal: Safety

OIG conducted an investigation based on information that State officials
from the New Jersey Department of Environmental Protection (NJDEP) had
concerns regarding the decommissioning plans (DP) submitted by two NRC
licensees located in New Jersey: Heritage Minerals, Inc. (Heritage), and Shieldalloy
Metallurgical Corporation (Shieldalloy). Specifically, NJDEP argued that the
NRC decommissioning standards for the Heritage site were too lenient. Also,
NJDEP opposed the DP proposed by Shieldalloy and maintained that the NRC
should not have accepted for review the DP submitted by Shieldalloy.

OIG learned that Heritage has been mining minerals from the native sands
on the Heritage site since 1986. Heritage was granted an NRC license in 1991
which licensed the residue material as well as the Heritage processing facility. In
November 1997, Heritage submitted a DP to terminate its license so that the site
could be released for “unrestricted use.” However, in 1998, NRC promulgated
a new License Termination Rule (LTR), which changed NRC radiation limits
for decommissioning sites from a dose-based limit to a concentration-based
limit. The new LTR included a provision which allowed any licensee to apply
for decommissioning under the old guidelines if its DP had been submitted by
August, 1998. Heritage was one of 12 NRC licensees who requested this allow-
ance. However, the NRC Commissioners required that their approval be given

                                                                                             27
                                                                     October 1, 2006 – March 31, 2007
                   prior to releasing any of the 12 sites if they exceeded the new radiation limits.
                   The Commission reviewed the NRC staff ’s assessment of the Heritage DP and
                   approved the recommendation to release the Heritage site for unrestricted use.

                   OIG learned that Shieldalloy was granted an NRC license in 1995 which
                   authorized possession of uranium and thorium. In June 2006, after two previous
                   submittals were rejected, the NRC accepted for review a Shieldalloy DP which
                   proposed a long-term control license. As part of this process, the NRC staff will
                   prepare a Safety Evaluation Report and an Environmental Impact Statement. The
                   Environmental Impact Statement will be issued for public comment.

                   OIG determined that the NRC staff ’s review of the DP of Heritage was conducted
                   in accordance with applicable NRC regulations and guidelines. Also, the NRC
                   staff is currently reviewing the DP submitted by Shieldalloy, and it is expected that
                   the review will take approximately 2 years to include a public comment period.
                   (Addresses Management Challenge #1)

                   Adequacy of NRC Handling of Security Vulnerabilities Reported by
                   Security Guards at Sequoyah Nuclear Power Plant

                                             OIG Strategic Goal: Safety

                                          OIG received information regarding Region II’s
                                          alleged handling of security concerns at Tennessee Valley
                                          Authority’s (TVA) Sequoyah Nuclear Power Plant (SNPP).
                                          The Project On Government Oversight (POGO), a
                                          non-profit organization, reported to the NRC that it had
                                          seen a pattern of NRC Regions being aware of security
                                          concerns at nuclear power plants but not informing NRC
                                          Headquarters. As an example, POGO cited an incident
Sequoyah Nuclear Power Plant              whereby Region II was warned about the vehicle portal
                                          vulnerability at SNPP in March 2006. However, in June
                 2006 a crate containing 30 assault rifles, ordered by the facility, was delivered to
                 the protected area and left unattended for 2 days. POGO alleged that in March
                 2006, Region II took no action to address SNPP’s vehicle portal vulnerability
                 which resulted in the June 2006 incident.


28
NRC OIG Semiannual Report
OIG reviewed NRC allegation records and interviewed staff members who
participated in the allegation process. OIG learned that the NRC staff reviewed
and addressed a general concern provided in March 2006 through the NRC’s
allegation process. Specifically, Region II referred the March 2006 concern to
TVA which later provided Region II the results of its review. Additionally, OIG
learned that the general security vulnerability concern reported in March 2006
was not directly related to the June 2006 incident. OIG found that the NRC
Region II learned of the June 2006, incident during a baseline security inspection
in July 2006, and the Region immediately informed NRC Headquarters. OIG
also found that the plant had informed a resident inspector at the time of the
incident, but that he had failed to further notify his management. The inspector
was counseled on this matter by the Region. Additionally, the NRC conducted
a special inspection to specifically address this incident in August 2006, and
determined that the licensee had committed two violations of NRC regulations.
OIG found no evidence of NRC staff misconduct during this investigation.
(Addresses Management Challenge #1)

Issuing Metrochek Subsidies in the Name of Departed
NRC Employees

OIG Strategic Goal: Corporate Management

OIG conducted an investigation based on a review of the NRC Administrative
Services Center, Metro Subsidy Program which developed information
that Metrochek subsidies had been issued in the names of former NRC
employees. The Metrochek Subsidy Program is managed by NRC
contractors. NRC contractors handling the program are responsible
for the daily operations which include distributing, reporting, and
conducting an inventory of the Metrochek subsidies.

OIG determined that the Metrochek farecards were distributed on nine
separate occasions in the names of six former NRC employees. Each Metrochek
farecard issued in the name of a former employee was for $105.00. OIG found that
an NRC contractor responsible for managing the Metrochek Subsidy Program,
had initialed and/or forged contractor co-workers’ initials on the Metrochek
distribution report, then stole the Metrochek farecards. The contractor used the
Metrochek farecards for personal use. (Addresses Management Challenge #6)

                                                                                           29
                                                                   October 1, 2006 – March 31, 2007
                 NRC Drug-Free Workplace Program Plan

                 OIG Strategic Goal: Corporate Management

                 The OIG completed an investigation based on information that the agency was
                 not operating its Drug-Free Workplace Program in compliance with applicable
                 Federal guidance and requirements. The program, mandated by Executive Order
                 12564, outlines NRC policies and procedures for drug testing employees. OIG
                 learned that Federal agencies must receive certification for their plans from the
                 Department of Health and Human Services (HHS).

                 OIG reviewed program plans and related documents and interviewed NRC staff
                 involved in overseeing and implementing the Drug-Free Workplace Plan. OIG
                 learned that in 1997, NRC implemented the NRC Drug-Free Workplace Plan.
                 However, this Plan, which is the guidance currently used by the NRC, has never
                 received HHS concurrence. Since February 2005, NRC has submitted three
                 versions of a proposed revision to the Plan, but to date the NRC has not received
                 HHS certification for the proposed revision. OIG had previously highlighted
                 the lack of HHS certification and other drug testing program shortcomings to
                 NRC in audits conducted in 2004. Additionally, OIG found that the agency has
                 deviated from the 1997 Plan in its implementation of the drug testing program.
                 In particular, the agency has failed to follow its own guidance in obtaining the
                 services of a Drug Rehabilitation Assessment Coordinator and in the roles and
                 responsibilities of the Employee Assistance Program Manager. OIG also noted
                 that disagreements between NRC managers involved in implementing the Plan
                 have precluded the sharing of necessary program information and the resolution
                 of program issues. (Addresses Management Challenge #6)




30
NRC OIG Semiannual Report
                             STATISTICAL SUMMARY OF
                               OIG ACCOMPLISHMENTS
INVESTIGATIVE STATISTICS
Source of Allegations — October 1, 2006, through March 31, 2007

                         NRC Employee                                              27
                     NRC Management                             9
           Other Government Agency                     3
                              Intervenor           2
                         General Public                                                 29
                                   Media       1
              OIG Investigation/Audit                                       22
                    Regulated Industry                     4
                            Anonymous                                        23
                        NRC Contractor             2


           Allegations resulting from the Hotline: 37                             Total: 122



Disposition of Allegations — October 1, 2006, through March 31, 2007

                                    Total                                                122
              Closed Administratively                           36
        Referred for OIG Investigation                              43
                Referred for OIG Audit        1
Referred to NRC Management and Staff                           31
          Referred to External Agency         2
            Pending Review or Action              6
           Correlated to Existing Case         3


                                                                                                 31
                                                                         October 1, 2006 – March 31, 2007
                 STATUS OF INVESTIGATIONS
                 DOJ Referrals . .................................................................................................. 11
                 DOJ Pending........................................................................................................ 1
                 DOJ Declinations ............................................................................................. 10
                 PFCRA Recoveries ..................................................................................$94,982
                 NRC Administrative Actions:
                 	 Terminations and Resignations ................................................................. 4
                 	 Suspensions and Demotions ...................................................................... 3
                 	 Counseling . .................................................................................................. 1
                 	 Alternative Dispute Resolution . ................................................................ 2

                 SUMMARY OF INVESTIGATIONS
                 Classification of 		           Opened 	 Closed 	 Cases In
                 Investigations	     Carryover	 Cases	   Cases	 Progress
                 Conflict of Interest	                                          0	               2	               0	             2
                 Internal Fraud	                                                1	               1	               0	             2
                 External Fraud	                                                0	               7	               0	             7
                 	False Statements	                                             0	               2	               1	             1
                  	Misuse of Government Property	                               2	               4	               6	             0
                   	Employee Misconduct	                                        5	               6	               5	             6
                    	Management Misconduct	                                     1	               1	               2	             0
                     Technical Allegations — Other	                             3	               8	               5	             6
                     Proactive Initiatives	                                     2	               0	               0	             2
                     Project	                                                   0	              11	               0	            11
                     Theft	                                                     1	               0	               1	             0
                     Event Inquiries	                                           3	               1	               1	             3
                     			 Total Investigations	                                 18	              43	              21	            40




32
NRC OIG Semiannual Report
AUDIT LISTINGS
Internal Program Audit and Special Evaluation Reports

Date	         Title	                                           Audit Number

10/06/2006	   Inspector General’s Assessment of the 	          OIG-07-A-01
	             Most Serious Management and Performance
	             Challenges Facing the Nuclear Regulatory
	             Commission 	

11/09/2006	   Results of the Audit of the United States 	      OIG-07-A-02
	             Nuclear Regulatory Commission’s Financial
	             Statements for Fiscal Years 2006 and 2005
	             (For information call OIG at 301-415-5915) 	

11/22/2006	   Independent Auditors’ Report on the 	            OIG-07-A-03
	             U.S. Nuclear Regulatory Commission’s
	             Special-Purpose Financial Statements as of
	             September 30, 2006, and 2005, and for the
	             Years then Ended (For information call OIG
	             at 301-415-5915) 	

11/30/2006	   Social Engineering Assessment - 	                OIG-07-A-04
	             OFFICIAL USE ONLY -
	             NOT FOR PUBLIC RELEASE
	             (For information call OIG at 301-415-5915) 	

01/09/2007	   Audit of NRC’s Technical Training Center	        OIG-07-A-05

01/10/2007	   Memorandum Report: Audit of NRC’s 	              OIG-07-A-06
	             Regulation of Nuclear Fuel Cycle Facilities 	

01/10/2007	   Memorandum Report: Review of NRC’s 	             OIG-07-A-07
	             Implementation of the Federal Managers’
	             Financial Integrity Act for Fiscal Year 2006 	



                                                                                        33
                                                                October 1, 2006 – March 31, 2007
                 Date	         Title	                                            Audit Number

                 01/10/2007	   Transmittal of the Independent Auditors’	    OIG-07-A-08
                 	             Report on the Condensed Financial Statements
                 	             of the United States Nuclear Regulatory
                 	             Commission for Fiscal Years 2006 and 2005

                 01/12/2007	   Transmittal of the Independent Accountants’ 	     OIG-07-A-09
                 	             Report on the Application of Agreed-Upon
                 	             Procedures on the Closing Package
                 	             Intergovernmental Activity and Balances

                 01/23/2007	   Audit of NRC’s Badge Access System	               OIG-07-A-10

                 03/23/2007	   Audit of NRC’s Nuclear Material 	                 OIG-07-A-11
                 	             Events Database 	

                 03/30/2007	   Summary Report and Perspectives on 	              OIG-07-A-12
                 	             Byproduct Material Security and Control 	


                 CONTRACT AUDIT REPORTS
                 OIG	          Contractor/	                        Questioned	   Unsupported
                 Issue Date	   Contract Number	                      Costs	         Costs

                 10/17/06	     Science and Engineering Associates	 0	 0
                 	             NRC-02-98-005
                 	             NRC-02-98-006				


                 1/18/07	      Urban Meridian Joint Venture	 $193,585	 0
                 	             NRC-10-04-413				


                 2/26/07	      Engineering Mechanics
                 	             Corp. of Columbus	                      0	             0
                 	             NRC-04-03-046

34
                 	             NRC-04-02-074


NRC OIG Semiannual Report
                                                                                   AUDIT TABLES
TABLE I
OIG Reports Containing Questioned Costs1


	                                                                       	                    Questioned	             Unsupported
	                                                                   Number of	                  Costs	                  Costs
Reports	                                                             Reports	                 (Dollars)	              (Dollars)

A.	    For which no management decision
       had been made by the commencement
       of the reporting period	                                           1	                    $38,433	              $3,606,365

B.	    Which were issued during the
       reporting period	                                                  1	                   $193,585	                     0

	      Subtotal (A + B)	                                                  2	                   $232,018	              $3,606,365

C.	    For which a management decision was
       made during the reporting period:

	      (i) 	 dollar value of disallowed costs	                            1	                    $38,433	              $3,606,365

	      (ii)	 dollar value of costs not disallowed	                        0	                         0	                      0

D.	    For which no management decision
       had been made by the end of the
       reporting period	                                                  1	                   $193,585	                     0

E.	    For which no management decision was
       made within 6 months of issuance	                                  0	                         0	                      0



1
 Questioned costs are costs that are questioned by the OIG because of an alleged violation of a provision of a law, regulation, contract,
grant, cooperative agreement, or other agreement or document governing the expenditure of funds; a finding that, at the time of the
audit, such costs are not supported by adequate documentation; or a finding that the expenditure of funds for the intended purpose
is unnecessary or unreasonable.


                                                                                                                              35
                                                                                           October 1, 2006 – March 31, 2007
         TABLE II
         OIG Reports Issued with Recommendations That Funds Be Put to Better Use2

         	                                                                    Number of	            Dollar Value
         Reports	                                                              Reports	              of Funds

         A.	    For which no management decision	 0	 0
                had been made by the commencement
                of the reporting period			

         B.	    Which were issued during the 	 0	                                                           0
                reporting period		

         C.	    For which a management decision was	
                made during the reporting period:		

         	       (i) 	 dollar value of recommendations	                             0	                      0
                	      that were agreed to by management

         	       (ii) 	dollar value of recommendations 	                            0	                      0
                 	 that were not agreed to by management

         D.	    For which no management decision had	                               0	                      0
                been made by the end of the reporting
                period

         E.	    For which no management decision was	 0	 0
                made within 6 months of issuance				



         2
          A “recommendation that funds be put to better use” is a recommendation by the OIG that funds could be
         used more efficiently if NRC management took actions to implement and complete the recommendation,
         including: reductions in outlays; deobligation of funds from programs or operations; withdrawal of
         interest subsidy costs on loans or loan guarantees, insurance, or bonds; costs not incurred by implementing
         recommended improvements related to the operations of NRC, a contractor, or a grantee; avoidance of
         unnecessary expenditures noted in preaward reviews of contract or grant agreements; or any other savings which are
         specifically identified.


36
NRC OIG Semiannual Report
TABLE III
Significant Recommendations Described in Previous Semiannual Reports on
Which Corrective Action Has Not Been Completed

Date	       Report Title	                                                   Number

05/26/03	   Audit of NRC’s Regulatory Oversight of Special 	              OIG-03-A-15
	           Nuclear Materials

	           Recommendation 1: Conduct periodic inspections to
	           verify that material licensees comply with material control
	           and accountability (MC&A) requirements, including, but
	           not limited to, visual inspections of licensees’ special
	           nuclear material (SNM) inventories and validation of
	           reported information.

05/24/04	   Review of NRC’s Drug-Free Workplace Plan	                     OIG-04-A-15

	           Recommendation 3: Obtain U.S. Department of Health
	           and Human Services approval of the NRC Drug-Free
	           Workplace Plan prior to implementation.

09/16/04	   Audit of NRC’s Incident Response Program	                     OIG-04-A-20

	           Recommendation 1: Establish a defined agencywide
	           incident response plan that includes standards for
	           performance, delineation of the conduct of exercises and
	           drills, and a well-defined objective mechanism for
	           evaluating incident response during exercises.




                                                                                         37
                                                                 October 1, 2006 – March 31, 2007
        TABLE III (continued)
        Significant Recommendations Described in Previous Semiannual Reports on
        Which Corrective Action Has Not Been Completed

        Date	       Report Title	                                                    Number

        09/30/05	   Evaluation of NRC’s Certification and Accreditation Efforts	   OIG-05-A-20

        	           Recommendation 1: Develop and implement procedures
        	           for monitoring timely initiation of certification and
        	           accreditation efforts.

        	           Recommendation 2: Develop and implement a mechanism
        	           for holding responsible managers and their staff account-
        	           able for completing certification and accreditation efforts
        	           in a timely manner.




38
NRC OIG Semiannual Report
TABLE IV
Summary of Audit Reports Without Management Decision For More Than Six Months

Date	       Report Title	                                                      Number

02/23/06	   Audit of the Development of the National Source 	                OIG-06-A-10
	           Tracking System

	           Summary: OIG made two recommedations to the
	           Executive Director for Operations to (1) conduct a
	           thorough regulatory analysis for all radioactive sources
	           that should be included in the new system, and (2) validate
	           data in an existing data base. The agency disagreed with
	           the first recommendation and agreed to take corrective
	           action on the second recommendation. Recommendation 1
	           remains unresolved.

	           Reason Unresolved: The agency’s proposed action does not
	           fully address the intent of OIG’s recommendation. OIG recom-
	           mended that NRC conduct a comprehensive regulatory
	           analysis of a much broader group of materials, including
	           aggregation of sources and bulk material. NRC’s proposal falls
	           far short of what OIG recommends. OIG plans to send the
	           issue to the audit resolution process.

03/16/06	   Audit of the NRC’s Byproduct Materials License 	                 OIG-06-A-11
	           Application and Review Process

	           Summary: OIG made two recommendations to the
	           Executive Director for Operations to (1) conduct a complete
	           vulnerability assessment of the materials program, including
	           the license application and review process, and (2) modify the
	           license application and review process to mitigate the risks
	           identified in the vulnerability assessment. The agency
	           disagreed with both recommendations and the recom-
	           mendations remain unresolved.

                                                                                            39
                                                                    October 1, 2006 – March 31, 2007
        Date	       Report Title	                                                    Number

        	           Reason Unresolved: OIG’s recommendation cannot
        	           be implemented unless and until NRC has undertaken a
        	           comprehensive vulnerability assessment of the materials
        	           program. The recommendation to modify the license
        	           and application review process to mitigate risks
        	           discovered during a comprehensive vulnerability
        	           assessment necessarily depends on the results of such
        	           an assessment. OIG plans to send the issue to the audit
        	           resolution process.

        09/29/06	   Evaluation of NRC’s Use of Probabilistic Risk Assessment 	     OIG-06-A-24
        	           (PRA) in Regulating the Commercial Nuclear
        	           Power Industry

        	           Summary: OIG made three recommendations to the
        	           Executive Director for Operations to (1) develop and
        	           implement a formal, written process for maintaining PRA
        	           models that are sufficiently representative of the as-built,
        	           as-operated plant to support model uses, (2) develop and
        	           implement a fully documented process to conduct and
        	           maintain configuration control of PRA software (i.e.,
        	           SAPHIRE, GEM), and (3) conduct a full verification and
        	           validation of SAPHIRE version 7.2 and GEM.

        	           Reason Unresolved: OIG and the agency remain in
        	           discussions on the most effective methodology to
        	           implement these recommendations. Significant progress
        	           has been made and OIG expects these recommendations
        	           to be resolved before the end of the next semi-annual
        	           reporting period.




40
NRC OIG Semiannual Report
          ABBREVIATIONS AND ACRONYMS
ACCESS	    Access Control and Computer Enhanced Security System

ADAMS	     Agencywide Documents Access and Management System

DP	        decommissioning plans

EP	        Emergency Preparedness

FCNMED	 Fuel Cycle Nuclear Materials Events Database

FY	        Fiscal Year

HHS	       U.S. Department of Health and Human Services		

HQ	        NRC Headquarters

HSPD-12	   Homeland Security Presidential Directive-12

IAM	       Issue Area Monitor

IG	        Inspector General

IG Act	    Inspector General Act

LPDR	      Local Public Document Room

LTR	       License Termination Rule

MD	        Management Directive

NFS	       Nuclear Fuel Services

NMED	      Nuclear Materials Events Database

NJDEP	     New Jersey Department of Environmental Protection

NRC 	      U.S. Nuclear Regulatory Commission

NSC	       Nuclear Safety Commission (Japan)

OIG 	      Office of the Inspector General (NRC)

                                                                                   41
                                                           October 1, 2006 – March 31, 2007
                 PARS	      Publicly Available Records System

                 POGO	      Project on Government Oversight

                 PRA	       Probabilistic Risk Assessment

                 SNPP	      Sequoyah Nuclear Power Plant

                 SPMS	      Space and Property Management System

                 SUNSI	     Sensitive Unclassified Non-Safeguards Information

                 TTC	       Technical Training Center (NRC)

                 TVA	       Tennessee Valley Authority




42
NRC OIG Semiannual Report
                               REPORTING REQUIREMENTS
The Inspector General Act of 1978, as amended (1988), specifies reporting require-
ments for semiannual reports. This index cross-references those requirements
to the applicable pages where they are fulfilled in this report.


CITATION	               REPORTING REQUIREMENTS	                                                PAGE

Section 4(a)(2)	        Review of Legislation and Regulations . ...................................6

Section 5(a)(1)	        Significant Problems, Abuses, and Deficiencies . ...... 9-18, 23-30

Section 5(a)(2) 	 Recommendations for Corrective Action ..........................9-18

Section 5(a)(3) 	 Prior Significant Recommendations
	                 Not Yet Completed . ............................................................37-38

Section 5(a)(4) 	 Matters Referred to Prosecutive Authorities ........................ 32

Section 5(a)(5) 	 Information or Assistance Refused . ................................. None

Section 5(a)(6) 	 Listing of Audit Reports .......................................................... 33

Section 5(a)(7) 	 Summary of Significant Reports .............................9-18, 23-30

Section 5(a)(8) 	 Audit Reports — Questioned Costs ...................................... 35

Section 5(a)(9) 	 Audit Reports — Funds Put to Better Use ............................ 36

Section 5(a)(10) 	 Audit Reports Issued Before Commencement
	                  of the Reporting Period for Which No
	                  Management Decision Has Been Made .......................... 35, 39

Section 5(a)(11) 	 Significant Revised Management Decisions .................... None

Section 5(a)(12) 	 Significant Management Decisions With
	                  Which OIG Disagreed ........................................................ None




                                                                                                              43
                                                                                      October 1, 2006 – March 31, 2007
44
NRC OIG Semiannual Report
